HHS/OIG, Audit -"Review of Outpatient Cardiac Rehabilitation Services at Anne Arundel Medical Center, Annapolis, Maryland"(A-03-03-00011)
Department of Health
and Human Services
Office of Inspector General -- AUDIT
"Review of Outpatient Cardiac Rehabilitation Services at Anne Arundel Medical Center, Annapolis, Maryland," (A-03-03-00011)
January 27, 2004
Complete
Text of Report is available in PDF format (409 KB). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of this review was to determine whether Medicare properly reimbursed Anne Arundel Medical Center (Anne Arundel)
for outpatient cardiac rehabilitation services.  Even though physician supervision was assumed to be met in an outpatient
hospital department, Anne Arundel contracted with a physician to supervise the services provided by its cardiac rehabilitation
program.  The physicians responsibilities included approval of the patients exercise prescriptions and reviewing
patients progress. We could not determine whether the physician was in the exercise area during regularly scheduled exercise
sessions or whether he saw the patients.  In addition, from our specific claims review for a sample of 30 beneficiaries
who received outpatient cardiac rehabilitation services during Calendar Year 2001, we determined that Anne Arundel received
Medicare payments of $3,997 for services where the diagnoses used to establish the patients eligibility for cardiac rehabilitation
may not have been supported and for services not otherwise allowable.